               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        City Delivery – Street Efficiency
                 Capital District

                       Audit Report




                                              August 16, 2012

Report Number DR-AR-12-003
                                                                        August 16, 2012

                                                     City Delivery – Street Efficiency
                                                                      Capital District

                                                        Report Number DR-AR-12-003



BACKGROUND:
Delivery operations have the highest         allowed for some inefficient delivery
fixed cost in the U.S. Postal Service,       practices.
making up more than 30 percent of its
operating expenses. Within the delivery      WHAT THE OIG RECOMMENDED:
carrier’s function, street operations        We recommended the manager, Capital
account for almost 265 million               District, reduce workhours by 110,740.
workhours that city carriers used in         We also recommended reinforcing
fiscal year 2011.                            policies and procedures for supervising
                                             city delivery street operations in delivery
Street operations is comprised of every      units, and eliminating inefficient
duty a carrier performs from the time he     practices. Further, we recommended the
or she loads the vehicle, delivers, and      district manager require managers to
collects mail along the route, and           establish and regularly coordinate,
returns to the delivery unit to unload the   review, and update integrated operating
vehicle. Street delivery includes carriers   plans to ensure that delivery point
delivering and collecting mail on their      sequence mail arrives timely and in
assigned routes. The Capital District is     route order for easy retrieval by carriers.
in the Capital Metro Area and has
57 units delivering mail on 1,842 routes.    Link to review the entire report

Our objective was to assess the
efficiency of city delivery street
operations in the Capital District.

WHAT THE OIG FOUND:
The Capital District has opportunities for
enhanced street delivery efficiency. We
determined the Capital District could use
about 12 fewer minutes of street time
per day on each carrier route, or
110,740 workhours, and save about
$4.5 million annually. Our review of
selected delivery units determined that
management did not always reinforce
Postal Service policies and procedures
for supervising city delivery street
operations at delivery units, which
August 16, 2012

MEMORANDUM FOR:              KELVIN L. WILLIAMS
                             DISTRICT MANAGER, CAPITAL DISTRICT

                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                        Robert J. Batta
                             Deputy Assistant Inspector General
                              for Mission Operations

SUBJECT:                     Audit Report – City Delivery – Street Efficiency
                             Capital District (Report Number DR-AR-12-003)

This report presents the results of our audit of city delivery street efficiency in the
Capital District (Project Number 12XG018DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Dean J. Granholm
    David C. Fields
    Elizabeth A. Schaefer
    Philip F. Knoll
    Corporate Audit and Response Management
City Delivery – Street Efficiency Capital District                                                                     DR-AR-12-003




                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Street Delivery Efficiency .................................................................................................... 1

   Street Supervision ........................................................................................................... 2

   More Efficient Carrier Practices ...................................................................................... 2

   More Efficient Loading Habits ......................................................................................... 3

   Delivery Point Sequence Handling ................................................................................. 5

   Integrated Operating Plan ............................................................................................... 6

Recommendations .............................................................................................................. 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 7

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objective, Scope, and Methodology ............................................................................... 8

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Monetary Impact ........................................................................................... 11

Appendix C: Management’s Comments ........................................................................... 12
City Delivery – Street Efficiency Capital District                                                   DR-AR-12-003



Introduction

This report presents the results of our audit of the city delivery street 1 efficiency in the
Capital District (Project Number 12XG018DR000). We discussed this topic with the vice
president, Delivery and Post Office Operations, and agreed to a Value Proposition 2
audit for fiscal year (FY) 2012. Our objective was to assess the efficiency of city delivery
street operations in the Capital District. See Appendix A for additional information about
this audit. The audit addresses operational risk and is one in a series to be conducted
by the U.S. Postal Service Office of Inspector General (OIG).

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. In contrast, delivery points have increased by more than 2.3
million since 2008. 3 The Postal Service must improve operational efficiency to reduce
costs while facing financial losses from declining mail volume.

Conclusion

While efficiency improvements have been made in the past, the Capital District has
opportunities for enhanced city street delivery efficiency and reduced workhour costs.
We determined the Capital District could use about 12 fewer minutes of street time per
day on each carrier route, or 110,700 workhours annually. As a consequence, the
Postal Service would save about $4.5 million annually (see Appendix B).

Street Delivery Efficiency

The increased focus on efficiency would allow management to reduce carrier street
workhours. Our review of 14 randomly 4 selected delivery units determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery street operations at delivery units and eliminate inefficient
practices. An increased focus on efficiency could allow management to reduce carrier
street workhours. For example, management needs to ensure that:

   There is a consistent supervisory presence on the street.

   Carriers deliver mail using the most efficient habits so as not to incur unnecessarily
    additional street time.


1
  Street delivery (or street time) is comprised of every duty a carrier performs from the time he or she loads the
vehicle, delivers, and collects mail along the route and return to the delivery unit to unload the vehicle.
2
  An agreement between the director, Delivery, and vice president, Delivery and Post Office Operations, on work that
will address issues of importance to the Postal Service.
3
  City delivery is responsible for 1,097,020 of the 2,390,741 delivery points added from FYs 2007 through 2011.
4
  We obtained a random sample from delivery units having 15 or more routes and 875 or more workhours used than
projected in the Delivery Operations Information System (DOIS) during calendar year 2011.
                                                             1
City Delivery – Street Efficiency Capital District                                                        DR-AR-12-003



   Carriers load their delivery vehicles using the more efficient way so as not to
    increase street time.

   Delivery point sequence (DPS) letters processed at the plant arrive at delivery units
    staged in route order for easy retrieval by carriers.

   Delivery unit and processing plant management establish, coordinate, and update
    integrated operating plans 5 (IOPs) for units to receive the proper mail types at
    scheduled times so carriers do not have to wait on mail before departing for the
    street and potentially delaying their return to the office.

Street Supervision

Supervisors did not always provide sufficient oversight of street operations. When
asked, several carriers stated they occasionally observed supervisors on the street but
not on a regular basis. Some supervisors stated they would like to spend more time
observing street operations and correcting inefficient carrier habits, but their duties in
the office often prohibited them from performing these duties.

One of the tools used to assist in street supervision is Postal Service (PS) Form 3999,
Inspection of Letter Carrier Route, 6 documenting the carrier’s ability to perform their
route on the street. Supervisors are required to complete a PS Form 3999 at least
annually. 7 However, our review indicated that unit management often did not have up-
to-date PS Forms 3999. In fact, we identified about 33 percent of these forms 8 (for 596
of 1,819 routes) that were more than 1 year old. Having a current PS Form 3999 allows
the supervisor to know exactly the carrier’s line-of-travel and where a carrier should be
and at what time. A current PS Form 3999 also allows the supervisor to know how long
a section of deliveries should take and helps monitor street performance.

More Efficient Carrier Practices

The OIG observed instances of carriers not using efficient carrier practices while
performing street duties at all 14 delivery units. These opportunities include:

   Using satchels to hold mail (see Figure 1).
   Fingering 9 mail between deliveries.
   Making multiple trips to vehicles during delivery stops.

                                   Figure 1: Carrier Not Using Satchel
5
  The IOP contract covers mail arriving from the plant and identifies the product of mail for each individual trip. The
primary purpose is to stabilize mail flow.
6
  A route examiner uses PS Form 3999 to record all pertinent information concerning the carrier's office and street
performance.
7
  Handbook M-39, Management of Delivery Services, March 1998, Section 134.11 states that “all carriers are to be
notified to expect daily supervision on the street” and “. . . accompanying carriers on the street is an essential
responsibility of management.”
8
  A review of PS Form 3999 at the Capital District that was older than 1 year as of July 6, 2012.
9
  The final separation of mail for the next several stops along with the verification of the address for delivery.


                                                            2
City Delivery – Street Efficiency Capital District                                                        DR-AR-12-003




                   Source: OIG, picture taken June 2012.


We observed multiple instances of carriers not using satchels to deliver mail, thereby
making multiple trips to and from their vehicles for more mail and incurring additional
street time. Inconsistent or improper use of satchels result in carriers having to make
more frequent trips to retrieve mail from their vehicles, thus incurring additional street
time. Postal Service procedures require carriers delivering mail on park-and-loop routes
to use their vehicles as movable relay boxes, 10 from which the carrier withdraws a
substantial amount of mail and place it into their satchel before beginning the route.
Carriers are required to carry the appropriate amount of mail, up to the 35-pound limit,
to complete each assigned relay without additional trips to the vehicle or relay box. 11

We also observed some carriers not '“fingering' mail between deliveries to place
mailpieces in order to avoid backtracking. A foot carrier routinely performs this task
enroute between deliveries, while a motorized carrier performs this task as he walks
from the vehicle to a house box. If the delivery is a curb box, the carrier fingers the mail
in the vehicle before placing it in the box. In addition, we observed some carriers
making multiple trips from the vehicle to deliver mail to cluster box units (CBUs). 12

More Efficient Loading Habits

The OIG observed instances of carriers not using efficient loading practices while on
street duties at 13 of 14 delivery units. Although we can trace some of the inefficient
loading habits to carriers waiting on mail or parcels, we observed opportunities for
carriers to be more efficient and save street time while loading delivery vehicles.

For example, we observed time-wasting practices, such as going to personal vehicles
(see Figure 2) or carriers rehandling parcels by placing them on the ground before

10
   Bundles or strapped mail the carrier prepares in sacks for delivery to boxes on the carrier’s line-of-travel. When the
carrier completes delivery of carry-out mail, they may pick up additional mail from relay boxes and continue this
process until the entire route is served.
11
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 273, March 1998.
12
   A centralized unit of individually locked mailboxes. CBUs are commonly used in new housing neighborhoods and
single buildings that house multiple businesses and are the most efficient means of delivery for the Postal Service.


                                                            3
City Delivery – Street Efficiency Capital District                           DR-AR-12-003



placing them in the vehicles (see Figure 3). In addition, carriers could become more
efficient by not engaging in unnecessary conversations, smoking, or using the
telephone.

            Figure 2: Carrier Moving Private Owned Vehicle During Loading




                              Source: OIG, picture taken May 2012.

                          Figure 3: Carrier with Parcels on the Ground




                                Source: OIG, picture taken May 2012.




                                                        4
City Delivery – Street Efficiency Capital District                                              DR-AR-12-003



In addition, some carriers made multiple trips to the office, and some units did not
supervise loading activities to prevent an expansion of street time. Postal Service policy
states that carriers should “avoid extra trips to the vehicle unless absolutely necessary”
and “delivery unit managers must supervise loading area activities daily to prevent
operational delays.”

Delivery Point Sequence Handling

At all 14 delivery units observed, DPS letters processed by the plant arrived at delivery
units in mail transport containers stacked on top of each other and not staged for easy
retrieval by the carriers. In most cases, a clerk or the supervisor reorganized the DPS
mail; however, carriers unloaded and sorted through the containers to identify their
routes' DPS mail while on street time (see Figure 4).

                               Figure 4: Carrier Rehandling DPS Mail




                      Source: OIG, picture taken May 2012.


When carriers have to search for their DPS mail trays, this extends their street time by
delaying their loading and departure. Postal Service policy 13 states “. . . mail processing
should stage DPS letters for transport in shelved or modified containers so individual
trays do not have to be rehandled at the delivery unit.” In addition, policy14 states “DPS
mail is not to be distributed to carriers, but staged near the exit for transport to vehicles
so they can be taken directly to the street without further handling.”




13
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 2-6.
14
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 4-5.




                                                       5
City Delivery – Street Efficiency Capital District                                                       DR-AR-12-003




Integrated Operating Plan

Mail did not always arrive in the proper mail mix. We observed several instances in
which the majority of flat mail arrived with DPS mail on the last dispatch of the morning.
Further, we observed parcels arriving along with DPS mail or arriving later than
expected. Contributing to this condition is the fact that each unit visited did not have an
IOP. The IOP is designed to help stabilize mail flow and is critical in establishing
appropriate staffing and reporting times to ensure carriers are not delayed. Delays can
prolong carriers’ return time beyond 5 p.m.. 15 The Capital District has daily meetings to
report issues to the plant. Although mail arrival has improved, mail flow issues often
remain unresolved.

Adjusting its operations and improved supervision during carrier street delivery would
increase Capital District’s overall efficiency by reducing 110,740 workhours. We
estimate this would result in the Postal Service saving more than $4.5 million annually,
or about $9 million over 2 years (see Appendix B).

Recommendations

We recommend the district manager, Capital District:

1. Reduce 110,740 workhours to achieve an associated economic impact of
   $4.5 million annually, or $9 million over 2 years.

2. Reinforce and ensure adherence to Postal Service policies and procedures for
   supervising city delivery street operations at delivery units and eliminate carrier
   inefficient practices during street time.

3. Increase street efficiency by preparing the integrated operating plans with facility
   processing managers and ensure delivery point sequence mail arrives timely and in
   route order for easy retrieval by carriers.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.

In response to recommendation 1, management agreed with the 110,740 in workhour
savings. Management has tasked the city delivery offices with performing at 2 percent
under the unit’s base workhours. Daily service reviews are conducted in offices pursing
these targets with findings reported to district senior management. To increase focus on
savings, management is performing a daily analysis of city delivery indicators for each

15
    The OIG previously reported on the effects of IOP issues on carrier office efficiency and workhours in the report
titled National Assessment of City Delivery Efficiency 2011 – Office Performance (Report Number DR-MA-11-002,
dated July 19, 2011).




                                                           6
City Delivery – Street Efficiency Capital District                               DR-AR-12-003



route. In subsequent discussions, management stated their plans are ongoing with an
estimated completion date of October 1, 2014.

Management responded to the second recommendation by agreeing there are
opportunities to save workhours associated with improving street efficiencies. The
Capital District plans to use various delivery tools to continue to monitor, communicate,
and hold accountable the teams that are not working toward improving those
efficiencies. The Capital District has placed emphasis on training all city delivery offices.
In addition, the Capital District has focused on increasing the number of PS Form 3999
completions by mandating a fixed number be completed by each manager of Post
Office Operations daily. Additionally, beginning August 2012, the PS Form 3999’s
review process will be scheduled monthly to ensure compliance. Lastly, the Capital
District has initiated a new critical process that covers all customer service activities.
Postmaster and managers will provide daily certification of more than 60 items related
to city carrier operations as well as discussing prior day performance. The critical
process is expected to be fully implemented by October 1, 2012.

Management responded to the third recommendation stating their agreement with the
finding that IOPs need to be updated as changes are made between the plant and
Customer Service Operations. The Capital District stated the district manager of
Operations and lead manager of In-Plant Support have been tasked with updating the
IOPs. Once updated, quarterly reviews will be established to ensure maintenance of
transportation schedules and proper mail flows are maintained. Management stated
their plans are ongoing with an estimated completion date of October 1, 2012. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                                     7
City Delivery – Street Efficiency Capital District                              DR-AR-12-003



                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history. Mail
volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total mail
volume to levels not seen since 1992. Since 2007, mail volume has dropped by about
44 billion pieces. The Postal Service must improve operational efficiency to reduce
costs while facing financial losses from declining mail volumes.

Despite a high degree of automation, mail delivery remains labor intensive. Labor costs
comprise nearly 80 percent of the Postal Service's cost. Delivery operations have the
highest fixed cost in the system, making up more than 30 percent of the Postal Service's
operating expenses. Within the delivery carrier’s function, street operations made up
264,989,254 of the overall 349,564,154 total office and street workhours 16 city carriers
used in FY 2011(more than 76 percent). Street operations (or street time) is comprised
of every duty a carrier performs from the time he or she loads the vehicle, delivers and
collects mail along the route, and returns to the delivery unit to unload the vehicle. The
Capital District is in the Capital Area and has 57 delivery units delivering mail on 1,842
routes and expended about 5.2 million in total workhours from April 1, 2011, through
March 31, 2012.

Unlike the carrier office function, a supervisor is not always present to observe each
carrier as they conduct deliveries along the route. This leaves opportunity for
inefficiency to enter the process. To effectively manage this manual process and
improve productivity, delivery supervisors strive to eliminate process inefficiencies and
manage costs by accurately matching workload to workhours, adjusting or eliminating
unnecessary routes, managing staff resources, and following a rigorous standardization
of best practices.

Objective, Scope, and Methodology

Our objective was to assess the efficiency of city delivery street operations in the
Capital District. To accomplish our objective, we:

      Determined and used Delivery Operations Information System (DOIS) street
       variance data to access performance and opportunities for efficiency based on
       discussions with Postal Service officials and OIG experts. Street operations have no
       preferred measurement of efficiency.

      Reviewed DOIS street variance hours from Enterprise Data Warehouse (EDW) for a
       1-year period in the Capital District. The difference between DOIS-projected street
       hours and the actual street hours used on an individual delivery route or entire unit
       resulted in the number of variance hours. A positive variance means the delivery unit


16
     DOIS workhours queried from the EDW.


                                                     8
City Delivery – Street Efficiency Capital District                              DR-AR-12-003



    used more street hours than DOIS projected, which indicates there is an opportunity
    for greater efficiency on the street.

   Randomly selected 14 delivery units in the Capital District that used more street
    hours than projected from April 1, 2011, through March 31, 2012, to determine
    opportunities for greater efficiency and reduced operating costs. We projected cost
    savings for delivery units in the Capital District using more actual street hours than
    projected.

   Reviewed and discussed procedures for street operations with management in
    selected delivery units. We judgmentally selected individual city routes to review and
    observed carrier street performance.

   Reviewed documentation and applicable policy and procedures for city delivery and
    Postal Service Handbooks M-39 and M-41.

We conducted this performance audit from April through August 2012, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 4, 2012, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed limited data integrity review
to support our data reliance. We assessed the reliability of delivery points’ data by
reviewing existing information about the data and the system that produced them, as
well as interviewing agency officials knowledgeable about the data. We determined the
data were sufficiently reliable for the purposes of this report.




                                                     9
     City Delivery – Street Efficiency Capital District                                         DR-AR-12-003



     Prior Audit Coverage

                                                 Final
                             Report             Report      Monetary
   Report Title              Number              Date        Impact                  Report Results
City Delivery            DR-AR-10-002           12/18/09   $21,308,433       The audit concluded the San
Efficiency Review                                                            Francisco Napoleon Street
– San Francisco                                                              Station was not operating at
Napoleon Street                                                              peak efficiency and
Station                                                                      management could reduce
                                                                             city delivery costs. Our
                                                                             benchmarking comparison of
                                                                             five similar delivery units
                                                                             showed this station used
                                                                             54,975 workhours more than
                                                                             necessary. We also found
                                                                             that management did not
                                                                             adjust workhours to changes
                                                                             in workload. Management
                                                                             agreed with our findings and
                                                                             recommendations to correct
                                                                             the issues identified.
City Delivery –          DR-AR-12-001            6/5/12         $6,840,240   The San Diego District has
Street Efficiency                                                            opportunities for enhanced
San Diego                                                                    street delivery efficiency. An
District                                                                     increased focus on efficiency
                                                                             could allow management to
                                                                             reduce about 83,930 carrier
                                                                             street workhours. Our review
                                                                             of selected delivery units
                                                                             determined management did
                                                                             not always reinforce Postal
                                                                             Service policies and
                                                                             procedures for supervising
                                                                             city delivery street operations
                                                                             in delivery units, which
                                                                             allowed for some inefficient
                                                                             delivery practices.
                                                                             Management agreed with our
                                                                             findings and
                                                                             recommendations.




                                                           10
City Delivery – Street Efficiency Capital District                                          DR-AR-12-003



                                      Appendix B: Monetary Impact

             Recommendation                       Impact Category                      Amount
                   1                           Funds Put to Better Use 17             $9,138,265


We estimated the monetary impact of $9,138,265 in funds put to better use by reducing
110,740 workhours at delivery units in the Capital District (see Table 1).

                             Table 1. Capital District Workhour Savings
                                         Estimated Annual             2-Year
                                         City           Estimated     Projection of
                                         Delivery       Savings from Savings from
         Note                 Delivery Workhours Overtime             Overtime
         District             Units      Saved          Workhours     Workhours
         Capital                     57      110,740       $4,528,159      $9,138,265
        Source: OIG.

We calculated funds put to better use for reducing city carrier workhours using the
Capital District city carrier overtime rate of $40.89 for FY 2013, with an escalation factor
of 1.5 percent for the 2-year projection.

The 110,740 annual workhour savings represent 6,644,400 minutes (110,740 hours
multiplied by 60 minutes). Dividing the more than 6 million minutes by 1,842 routes 18 in
the Capital District and then dividing by 303 annual days equals a savings of about 12
minutes per route per day.




17
     Funds that could be used more efficiently by implementing recommended actions.
18
     Number of routes in the district as of April 2, 2012.


                                                         11
City Delivery – Street Efficiency Capital District                DR-AR-12-003



                              Appendix C: Management’s Comments




                                                     12
City Delivery – Street Efficiency Capital District        DR-AR-12-003




                                                     13
City Delivery – Street Efficiency Capital District        DR-AR-12-003




                                                     14
